Report No. DODIG-2012-130              September 14, 2012




    DFAS Controls over Duplicate Payments in One Pay
        Were Generally Effective, But There Were
            Opportunities for Improvement
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports, or contact the
Secondary Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                       Department of Defense Office of Inspector General
                       Office of the Deputy Inspector General for Auditing
                       ATTN: Audit Suggestions/13F25-04
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500




Acronyms and Abbreviations
BAM            Business Activity Monitoring
DFAS           Defense Finance and Accounting Service
DoD FMR        DoD Financial Management Regulation
IG             Inspector General
IPERA          Public Law 111-204, “Improper Payments Elimination and Recovery Act
                of 2010”
PIIN           Procurement Instrument Identification Number
SPIIN          Supplemental Procurement Instrument Identification Number
WAWF           Wide Area Work Flow
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                              September 14,2012

MEMORANDUM FOR UNDER SECRETARY Of DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER, DOD
              DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
              NAVAL INSPECTOR GENERAL

SUBJECT: DFAS Controls over Duplicate Payments in One Pay Were Generally Effective, But
         There Were Opportunities for Improvement (Report No. DODJG-20 12-1 30)

We are providing this report for review and comment. Although processes for detecting and
preventing improper duplicate payments in One Pay were generally effective, Defense Finance
and Accounting Service processes and system controls can be improved. The Jack of specific
review procedures, One Pay system edit controls, and Business Activity Monitoring detection
logic resulted in the Defense Finance and Accounting Service making 11 duplicate payments
valued at $162,547. Additionally, the Enterprise Standards and Solutions Directorate did not
provide specific guidance on improper payment reporting, which resulted in the Defense Finance
and Accounting Service not reporting seven improper payments and an understatement on Navy
and DoD improper payment reports of $682,839. We considered management comments on a
draft of this report from the Defense Finance and Accounting Service when preparing the final
rep011.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The comments
from the Director, Defense Finance and Accounting Service Cleveland, on Recommendations 2,
3.a, 3.b, and 4 were responsive and no further comments are required. The Director's comments
on Recommendation 1 were not responsive. Therefore, we request additional comments on that
recommendation by October 15, 2012.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send a .pdf file containing your comments to audcleve@dodig.mil. Comments provided
to the final report must be marked and portion-marked, as appropriate, in accordance with DoD
Manual 5200.01. Copies of management comments must contain the actual signature ofthe
authorizing official. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945 (DSN 664-5945).


                                             vf~TVt;Mhl(_
                                             LorinT. Venable, CPA
                                             Acting Assistant Inspector General
                                             DoD Payments and Accounting Operations
Report No. DODIG-2012-130 (Project No. D2011-D000DE-214.000)             September 14, 2012


               Results in Brief: DFAS Controls Over
               Duplicate Payments in One Pay Were
               Generally Effective, But There Were
               Opportunities for Improvement
                                                               fields were different, input was more
What We Did                                                    than 25 days apart, or the amount was
The objective of the audit was to determine                    $250 or less (nine duplicate payments
whether the Defense Finance and Accounting                     valued at $113,096).
Service (DFAS) processes were effective at
detecting and preventing improper payments              As a result, DFAS made 11 duplicate payments
processed through the One Pay system. From              valued at $162,547. DFAS took prompt action
October 1, 2009, through March 31, 2011,                to initiate collection on the duplicate payments
DFAS made more than one million payments,               identified.
valued at approximately $53 billion, through
One Pay. We focused on processes for                    In addition, DFAS Cleveland Accounts Payable
detecting and preventing duplicate payments.            did not report seven improper payments, valued
We statistically selected a sample of 331 unique        at $682,839, because DFAS Enterprise
payment records, valued at approximately                Standards and Solutions Directorate did not
$9 million, from a population that had                  provide specific guidance on improper payment
characteristics of duplicate payments.                  reporting. This resulted in an understatement on
                                                        Navy and DoD improper payment reports.
What We Found
                                                        What We Recommend
Although DFAS processes for detecting and
preventing improper duplicate payments in One           We recommend that the DFAS develop and
Pay were generally effective, we observed               implement a review of manually input invoices
opportunities for improvement. DFAS needs to            to detect payments that are identified as possible
improve processes for detecting and preventing          duplicates by edit checks; revise One Pay edit
duplicate payments made through One Pay.                controls to detect possible duplicates when less
DFAS processes allowed duplicate payments               than five critical fields match; and expand logic
because:                                                for the automated detection tool. In addition,
                                                        DFAS should issue specific guidance for
   •	 DFAS Cleveland Accounts Payable
                                                        reporting improper payments.
       Directorate did not have procedures to
       review invoices after technicians input
       and evaluate possible duplicates                 Management Comments and
       (one duplicate payment valued at $585);          Our Response
   •	 One Pay edit controls were not                    Management comments were responsive for
       configured to detect duplicates unless all       four of five recommendations. We request that
       five critical data fields matched                the One Pay Systems Manager, DFAS, provide
       (10 duplicate payments valued at                 additional comments to Recommendation 1.
       $161,962); and                                   Please see the recommendations table on the
   •	 Business Activity Monitoring, the                 back of this page.
       automated detection tool, did not
       identify duplicates when data in specific
                                                    i
Report No. DODIG-2012-130 (Project No. D2011-D000DE-214.000)      September 14, 2012

Recommendations Table

           Management                      Recommendations    No Additional Comments
                                          Requiring Comment         Required
Defense Finance and Accounting        1
Service, One Pay Systems Manager
Defense Finance and Accounting                                2
Service Cleveland, Accounts Payable
Director
Defense Finance and Accounting                                3.a, 3.b
Service, Program Manager, Business
Activity Monitoring
Defense Finance and Accounting                                4
Service, Director, Enterprise
Solutions and Standards

Please provide comments by October 15, 2012.




                                              ii
Table of Contents

Introduction	                                                               1


      Objective                                                             1

      Background                                                            1

      Review of Internal Controls                                           2


Finding. DFAS Controls Over Duplicate Payments Were Generally Effective, But 

There Were Opportunities for Improvement                                    3


      Detecting and Preventing Duplicate Payments                           3

             Manual Invoice Process Controls                                4

             Automated Invoice Process Controls                             5

             Detecting and Preventing Duplicate Payments Using Business 

               Activity Monitoring                                          6

             Business Activity Monitoring Detected, But Navy Approved 

               Duplicate Payments                                           7

             Unreported Improper Payments                                   8

      Management Actions                                                    8

      Additional Testing for Possible Duplicates                            8

      Recommendations, Management Comments, and Our Response                9


Appendices

      A. 	Scope and Methodology                                             12 

             Use of Computer-Processed Data                                 13 

             Use of Technical Assistance                                    13 

             Prior Coverage                                                 13 

      B. Statistical Sample	                                                15 


Glossary	                                                                   18 


Management Comments

      Defense Finance and Accounting Service 	                              20

Introduction
Objective
The objective of the audit was to determine whether the Defense Finance and Accounting
Service (DFAS) processes were effective at detecting and preventing improper payments
processed through the One Pay system. See Appendix A for a discussion of the scope
and methodology related to the audit objective.

Background
DFAS developed One Pay, a commercial entitlement system, to process vendor
payments. DFAS sites such as Cleveland, OH; Columbus, OH; Rome, NY; and
Indianapolis, IN, used One Pay to establish payment entitlements from invoice batch
files, Wide Area Work Flow (WAWF) invoices, and invoices submitted by mail or fax.
DFAS designed One Pay to create payment entitlements in accordance with the Prompt
Pay Act, recognize and manage applicable discounts or deductions, and compute and
apply interest when necessary. Invoices could be input into One Pay through manual or
automated processes. DFAS Accounts Payable technicians manually input invoice data
into One Pay to process Navy activities submitted by mail or fax. One Pay received and
processed invoices automatically from WAWF and batch file invoices from Navy
activities or vendors.

DFAS Accounts Payable personnel at multiple sites used One Pay to process vendor
payments, primarily for goods and services purchased by the Department of the Navy
(Navy). Between October 1, 2009, and March 31, 2011, DFAS processed approximately
one million payments through One Pay, valued at approximately $53 billion. During the
same time period DFAS Cleveland reported 879 improper payments, valued at
approximately $17.8 million. Of those 879 improper payments, 156 were duplicate
payments, valued at $4 million.

One Pay was designed to detect and prevent possible duplicate payments by performing
duplicate invoice edit checks. One Pay performed a 5-way match on invoices processed
manually and from WAWF and batch files. When all of the five critical fields in an
invoice matched, One Pay prevented the invoice from being processed. The five critical
fields were:
    • Procurement Instrument Identification Number (PIIN)
    • Supplemental Procurement Instrument Identification Number (SPIIN)
    • Date of Invoice
    • Invoice Gross Amount
    • Invoice Number

DFAS Accounts Payable personnel also used the Business Activity Monitoring (BAM)
tool to detect improper payments in One Pay. BAM, a payment validation tool, was
configured to detect and prevent duplicate, over, under, and erroneous payments by
evaluating payments based on criteria such as matching PIINs, invoice numbers, and
invoice gross amounts. After BAM identified possible duplicate payments, DFAS

                                           1

Accounts Payable technicians reviewed the invoices or contacted the Navy organizations
to research and verify whether the payment is a duplicate.

We selected our sample of 331 unique payment records, valued at $9.2 million, from a
population that demonstrated characteristics of duplicate payments. See the appendices
for scope, methodology, and sampling techniques.

Improper Payments Elimination and Recovery Act of 2010
On July 22, 2010, the President signed Public Law 111-204, “Improper Payments
Elimination and Recovery Act of 2010,” (IPERA) to prevent the loss of billions in
taxpayer dollars related to improper payments. IPERA defines improper payments as any
payment that should not have been made or that was made in an incorrect amount
(including overpayments and underpayments) under statutory, contractual,
administrative, or other legally applicable requirements.” This includes payment for an
ineligible good or service, duplicate payments, payment for a good or service not
received, and payment that does not account for credit for applicable discounts.

DoD Financial Management Regulation
DoD Regulation 7000.14-R, “DoD Financial Management Regulation (DoD FMR),”
volume 4, chapter 14, “Improper Payments,” December 2008, defines the term
“erroneous payment” as an improper payment. The DoD FMR requires DoD
Components to categorize and report improper payment data annually. Some examples
of improper payment categories are payments made with insufficient documentation;
errors made by the Federal Agency inputting, classifying, or processing applications or
payments; and, errors due to inaccurate invoices.

Review of Internal Controls
DoD Instruction 5010.40, "Managers' Internal Control Program Procedures,"
July 29, 2010, required DoD organizations to implement a comprehensive system of
internal controls providing reasonable assurance programs are operating as intended and
to evaluate the effectiveness of the controls. We identified the following internal control
weaknesses to detect and prevent duplicate payments in One Pay: DFAS Cleveland
Accounts Payable Directorate did not have a supervisory review process for manual
invoices identified by One Pay as a possible duplicate, allowing a technician to change
one of the five critical data fields; One Pay’s automated edit check controls did not detect
possible duplicate payments unless all five critical data fields matched; and BAM, a One
Pay automated detection tool, did not identify possible duplicate payments when data in
specific fields were different, invoices were entered more than 25 days apart, or the
invoice amount was $250 or less. Additionally, DFAS Enterprise Solutions and
Standards Directorate did not provide clear guidance for reporting improper payments.
We will provide a copy of the report to the senior official responsible for internal controls
in DFAS.




                                             2

Finding. DFAS Controls Over Duplicate
Payments in One Pay Were Generally
Effective, But There Were Opportunities for
Improvement
DFAS processes for detecting and preventing improper duplicate payments in One Pay
were generally effective. However, DFAS processes and system controls for detecting
and preventing duplicate payments can be improved. DFAS manual and automated
processes allowed duplicate payments because:

    •	 DFAS Cleveland Accounts Payable Directorate did not have a supervisory review
       process to check payment records identified by One Pay as possible duplicates
       and changed by a technician (1 of the 11 duplicate payments);
    •	 One Pay’s automated edit check controls did not detect possible duplicate
       payments unless all five critical data fields matched (10 of the 11 duplicate
       payments); and
    •	 BAM, a One Pay automated detection tool, did not identify possible duplicate
       payments when data in specific fields were different, invoices were entered more
       than 25 days apart, or the invoice amount was $250 or less (9 of the 11 duplicate
       payments). 1

The BAM tool detected 2 of the 11 duplicate payments; however, Navy personnel
incorrectly determined the payments were not duplicates.

As a result, DFAS Cleveland and Columbus did not prevent 11 duplicate payments,
valued at $162,547, from being processed through One Pay. DFAS and the Navy
initiated action to collect or resolve duplicate payments identified.

Additionally, DFAS Cleveland Accounts Payable personnel did not report seven
improper payments as required by DoD FMR, volume 4, chapter 14. This occurred
because specific guidance for reporting selected types of improper payments was not
provided by DFAS Enterprise Standards and Solutions. As a result, DFAS Cleveland
understated the amount of improper payments for the Navy and the DoD by $682,839.

Detecting and Preventing Duplicate Payments
DFAS processes for detecting and preventing duplicate payments were generally
effective. However, DFAS Cleveland and Columbus Accounts Payable personnel
processed 11 duplicate payments, valued at $162,547, through One Pay by paying for the
same goods and services more than once. This audit focused on processes and controls


1
  BAM is a separate edit check run on One Pay data. The nine payments not detected by BAM also failed
one of the other controls. Therefore the results of the BAM tests are not to be combined with the results of
the other two One Pay edit controls.

                                                     3

used to detect and prevent duplicate payments. A payment was considered a duplicate
when the same invoice was paid to different vendors or the same vendor was paid
multiple times for the same goods or service. Accounts Payable personnel manually
input 6 of the 11 duplicate payments and received the other 5 from WAWF or batch file
automated processes. Additionally, the automated improper payment detection tool,
BAM, did not detect and prevent 9 of these same 11 duplicate payments. The table
provides additional information on the input and BAM process for the 11 duplicate
payments.

                   Table. Process Controls Led to Duplicate Payments
    Duplicate         Certified        One Pay Duplicate Payments Input           BAM Process
    Payment           Invoice                   Process Type                        Controls
    Document          Amount          Manual     Automated      Automated       Not         BAM
     Control                                      WAWF            Batch       Detected    Detected
     Number                                                                   by BAM      and Navy
                                                                                          Reviewed
9LK0373                $ 48,307.94                                  X                        X
9KK6161                  38,019.19                                  X             X
0HF5VNA                  31,800.94       X                                        X
0BFW5BG                  19,889.71       X                                        X
          1
0FG9FRB                  19,854.72                    X                           X
0IFU7CG                    1,283.10      X                                        X
0EK0523                    1,142.79                                 X                         X
9LFHIP                      711.90       X                                        X
0GFPPG9                     585.10       X                                        X
9JF9YWX                     449.97                    X                           X
0LFAAAM &                   250.00
0IFY7ML2                                 X                                        X
                            251.75
  Total                 $162,547.11         6             2              3        9            2
1
  DFAS Columbus Accounts Payable made this duplicate payment, all other payments were made by

DFAS Cleveland Accounts Payable.

2
  The same invoice was paid three times resulting in two duplicate payments.


Manual Invoice Process Controls
DFAS Cleveland Accounts Payable technicians processed six duplicate payments valued
at $54,773, from invoices mailed or faxed into One Pay. The One Pay duplicate invoice
check control identified possible duplicate payments when all five critical data fields
matched. When a possible duplicate payment is detected with the duplicate invoice
check, the technician who entered the invoice is prompted to research the original invoice
and the duplicate to determine whether the second payment is valid. However, even with
these processes in place, Accounts Payable personnel still manually processed six
duplicate payments.

DFAS Cleveland Accounts Payable personnel processed five of the six duplicate manual
payments, valued at $54,187, with different PIINs because the One Pay duplicate invoice

                                                 4

check was configured to detect and prevent duplicates when all five critical data fields
matched. For example, Accounts Payable personnel received and processed an invoice
package for manual processing, valued at $31,801. Four hours later, Accounts Payable
personnel received the same invoice package and processed it again. The cover sheet
indicated the invoice submitted earlier contained incorrect information including the
contract number; however, the second invoice package was not submitted into the
corrections queue for One Pay. The second invoice package contained the correct
contract number. Technicians manually processed both invoice packages as new
submissions and input the two different contract numbers as PIINs. DFAS Cleveland
Accounts Payable personnel made this duplicate payment because the duplicate invoice
check did not detect the second invoice with a different PIIN. The PIIN, a critical data
field, is used by the duplicate invoice check to detect possible duplicates.

DFAS Cleveland Accounts Payable personnel processed one duplicate payment, valued
at $585.10, because they did not have a supervisory review process to review manual
invoices identified by One Pay as a possible duplicate and changed by a technician. In
                                   this instance, Accounts Payable personnel received
       Although One Pay’s          and processed an invoice package by fax from Navy
      duplicate invoice check      personnel for manual processing, valued at $585.10.
   identified the second invoice   Two weeks later, Accounts Payable personnel received
      as a possible duplicate,     the same invoice package by mail. The One Pay
  Cleveland Accounts Payable       duplicate invoice check identified the invoice as a
      personnel did not have       possible duplicate payment when the Accounts
        supervisory review         Payable technician entered the second invoice. The
     procedures to prevent a       technician changed the first letter of the SPIIN and
       duplicate payment…          noted it was not a duplicate payment. The PIIN and
                                   SPIIN fields allowed entry of a variety of numbers
used for processing such as contract numbers, document numbers, and delivery orders.
Although One Pay’s duplicate invoice check identified the second invoice as a possible
duplicate, DFAS Cleveland Accounts Payable personnel did not have supervisory review
procedures to prevent a duplicate payment after a technician incorrectly modified the
invoice data.

The DFAS One Pay Systems Manager should expand the duplicate invoice check criteria
to flag matches on less than five critical data fields in order to detect additional duplicate
payments. In addition, the DFAS Cleveland Accounts Payable Director should develop
and implement a procedure for supervisors to review invoices identified by the duplicate
invoice check and processed by a technician as a valid payment.

Automated Invoice Process Controls
DFAS Cleveland and Columbus Accounts Payable made five duplicate payments, valued
at $107,775, input from automated processes. Accounts Payable received invoices
electronically from WAWF and batch files into One Pay. Accounts Payable personnel
used the One Pay duplicate invoice check control to detect and prevent possible duplicate
payments. When all five critical fields matched, One Pay detected the possible duplicate
payment, and further review was required. However, in five instances Cleveland and

                                              5

Columbus Accounts Payable made duplicate payments: two from WAWF and three from
batch files.

The two duplicate payments input from WAWF files, and valued at $20,305, occurred
because the One Pay duplicate invoice check control was configured to detect possible
duplicate payments only when all five of the critical data fields matched. According to
Accounts Payable personnel, Navy personnel certify WAWF invoices and electronically
transmit them to One Pay for payment. Once received, One Pay performs a check of the
five critical data fields to detect and prevent possible duplicate payments. For example, a
vendor entered, and a Navy official certified, the same invoice with two different PIINs
in WAWF as two separate invoices. DFAS received these two WAWF invoices, valued
at $450, into One Pay and paid both. Since the SPIINs did not match, the One Pay
duplicate invoice check did not detect or prevent the possible duplicate payment.

The One Pay duplicate invoice check did not detect the three duplicate payments
processed from batch files, and valued at $87,470, because it was configured to detect
                                     possible duplicate payments only when all five
     For example, the same
                                     critical data fields were the same. For example, the
   invoice, valued at $48,308,
                                     same invoice, valued at $48,308, was certified,
   was certified, batched, and
                                     batched, and transmitted to One Pay from a Navy
  transmitted to One Pay from
                                     activity in November and December 2009. The two
  a Navy activity in November
                                     invoices contained all of the same critical data fields,
      and December 2009.
                                     with the exception of the invoice date. Since the
invoice dates were different, the One Pay duplicate invoice check control did not detect
and prevent the duplicate payment. The DFAS One Pay Systems Manager should change
the One Pay duplicate invoice check to detect and flag upon input, payments that are
similar, but have less than five matching critical data fields.

Detecting and Preventing Duplicate Payments Using Business
Activity Monitoring
The automated detection tool, BAM, did not detect and prevent 9 payments, valued at
$113,096, of the same 11 duplicate payments allowed by One Pay. BAM evaluated the
invoice data daily and identified possible duplicate payments based on criteria such as
matching PIINs, invoice numbers, and gross amounts. Accounts Payable personnel relied
on BAM to identify possible duplicate payments. Once identified, Accounts Payable
personnel reviewed supporting documentation for manual or WAWF payments to
determine whether the payment was a duplicate. When BAM identified possible
duplicate payments submitted in a batch file, technicians contacted Navy personnel to
verify if the payment was a duplicate. Navy personnel responded with an email to
confirm the payment was a duplicate.

BAM did not detect and prevent duplicate payments because the BAM Program Manager
did not configure logic to detect duplicate payments when:
    •	 The PIIN or SPIIN fields were different prior to October 8, 2010. On
        October 8, 2010, DFAS corrected the BAM logic to detect possible improper
        payments with different PIINs and/or SPIINs.

                                             6

    •   Invoice input dates were more than 25 days apart; and
    •   The invoice gross amount was $250 or less.

BAM logic did not work effectively because it did not identify nine duplicate payments,
valued at $113,096, when PIINs or SPIINs did not match and four of the nine invoices
were input more than 25 days apart. For example, Accounts Payable manually input an
invoice package valued at $19,855. Three months later, the same invoice was input into
One Pay from WAWF. The submissions contained different PIINs. BAM did not detect
this invoice as a possible duplicate because the PIINs did not match and the invoices
were entered 90 days apart. Even though the BAM Program Manager improved the
detection logic in BAM, the logic should be modified to detect invoices input into One
Pay more than 25 days apart.

In addition, DFAS made one duplicate payment, valued at $250, because the BAM
detection logic was configured to only identify possible duplicates greater than $250.
                                  DFAS Accounts Payable processed the same
   DFAS technicians entered       $250 invoice three times. DFAS technicians entered the
     the invoice three times      invoice three times using different variations of the
  using different variations of   contract number in the PIIN field. This allowed it to
   the contract number in the     pass both the One Pay duplicate edit check and BAM
            PIIN field.           logic. A technician entered the third invoice more than
                                  25 days after the first two invoices. If DFAS had
increased the invoice input date criteria to more than 25 days apart, this payment would
have still occurred because it was less than or equal to $250. By decreasing the $250
invoice gross amount threshold in BAM logic, DFAS may increase the possibility of
detecting and preventing additional duplicate payments.

Business Activity Monitoring Detected, But Navy Approved
Duplicate Payments
BAM detected 2 possible duplicate payments, valued at $49,451, of the 11 duplicates
identified. Since the two invoices were input by the automated batch process and DFAS
did not have the supporting documentation, technicians could not determine if the
payments were duplicates. Therefore, the technicians provided the possible duplicate
payment information to Navy personnel, who determined whether or not the payments
were duplicates. Navy personnel incorrectly determined the invoices submitted for
payment were not duplicates; and as a result duplicate payments were made. We did not
perform testing of Navy controls over payments because Navy processes were not within
the scope of our audit. We did not perform work at the Navy or make recommendations
for this issue. However, we contacted Navy management and made them aware of this
issue.




                                           7

Unreported Improper Payments
Cleveland Accounts Payable personnel did not report 1 of the 11 duplicate payments,
valued at $19,890, and 6 of 32 2 previously identified improper payments, valued at
$662,949. According to DoD FMR, volume 4, chapter 14, “Improper Payments,” DoD
Components are required to report improper payments. DFAS guidance defines an
improper payment as a payment that should not have been made or was made in the
incorrect amount. In addition, DFAS guidance stated improper payments should be
reported whether or not the payment resulted in a bill of collection. Accounts Payable
personnel processed invoices with incorrect vendor codes or PIINs through One Pay,
which resulted in improper payments that met the DoD FMR definition. Technicians also
did not report an improper payment when the vendor returned the improper payment
without cashing the check. For example, Cleveland Accounts Payable personnel did not
report one improper payment, valued at $257,451, after the payment was processed with
an incorrect PIIN. Since the vendor returned the check before collection procedures
started, the technician did not report it as an improper payment. DFAS guidance does not
state that the improper payments should be included in or excluded from reporting. The
technicians did not report the improper payments because DFAS Enterprise Solutions and
Standards Directorate provided payment reporting guidance that was not specific and did
not clearly demonstrate what to report as an improper payment.

 By not reporting seven improper payments, DFAS, Navy, and DoD understated the
amount of improper payments reported by $682,839. This did not provide DFAS, Navy,
and DoD management an accurate reporting of the improper payments made through the
One Pay system and did not meet the intent of IPERA or comply with DoD FMR
reporting requirements. DFAS Enterprise Solutions and Standards Director should revise
and reissue guidance to specifically include or define improper payments as any payment
issued regardless of whether the vendor returned the funds.

Management Actions
DFAS Cleveland and Columbus and Navy personnel took prompt action to initiate
collection actions on the four duplicate payments we identified and the seven identified
by DFAS. The BAM Project Manager made changes to BAM logic to detect similar
payments, but with different PIINs and SPIINs.

Additional Testing for Possible Duplicates
We did not test all of the 8,808 unique payment records in the population that had
characteristics of a duplicate payment. There is a likelihood of more duplicates in the
population of payments we did not test. The DFAS BAM Program Manager should use
the updated logic in BAM to identify additional possible duplicates by processing the
8,477 unique payment records we did not evaluate through BAM.




2
 Our sample contained 32 payments already identified by DFAS as improper payments. These included
payments with incorrect vendor codes and PIINs, but not duplicate payments.

                                                 8

Recommendations, Management Comments, and Our
Response
We recommend the:

   1.	 Defense Finance and Accounting Service, One Pay Systems Manager, change
       the One Pay duplicate invoice check to detect and flag payments upon input
       that are similar, but have less than five matching critical data fields.

Management Comments
The Director, DFAS Cleveland, responding for the DFAS One Pay Systems Manager,
disagreed. The Director indicated that making the recommended change in One Pay
would duplicate the Same Contract and Different Contract integrity checks that BAM
already performs.

Our Response
The comments provided by the Director, DFAS Cleveland, were not responsive.
Although we agree that BAM is a useful tool to detect potential duplicate invoices in One
Pay, BAM does not meet the intent of the recommendation. The preventive control
change in One Pay as recommended is meant to be a proactive measure, early in the One
Pay invoice processing cycle. The intent is to prevent potential duplicate invoices from
being input and processed in One Pay, eliminating the duplicate payment before it is
created instead of when it is queued for payment. Increasing proactive measures may
result in efficiencies, eliminating duplicates from the BAM review and improper payment
collection processes. Additionally, based on our observations, it was not apparent that
BAM consistently identified and prevented improper duplicate payments prior to
payment. We request that the Director, DFAS Cleveland reconsider his position on the
recommendation and provide comments on the final report.

   2.	 Defense Finance and Accounting Service Cleveland, Accounts Payable
       Director, improve the accuracy and reduce the risk of duplicate payments by
       developing and implementing a supervisory review of manually input
       invoices identified as possible duplicate payments by One Pay and approved
       by a technician as a valid payment.

Management Comments
The Director, DFAS Cleveland, responding for the DFAS Cleveland Accounts Payable
Director, agreed. The Director, DFAS Cleveland, stated that as of July 11, 2012,
“duplicate by-pass indicator” and potential duplicate report reviews have been added to
daily procedures to ensure technicians did not mistakenly allow a duplicate invoice to be
processed in One Pay.

Our Response
The Director, DFAS Cleveland comments are responsive and meet the intent of the
recommendation. No further comments are required.

                                            9

   3.	 Defense Finance and Accounting Service, Program Manager, Business
       Activity Monitoring:
          a.	 revise Business Activity Monitoring logic for detecting and preventing
              duplicates to beyond the “entered within 25 days” and “greater than
              $250” criteria.

Management Comments
The Director, DFAS Cleveland, responding for the BAM Program Manager, agreed in
principle. The Director, DFAS Cleveland, stated the BAM Program Management Office
will perform various parameters testing, including those recommended, to determine
whether the recommended logic change would improve both improper payment
prevention and optimized resource use. The estimated completion date is
December 30, 2012.

           b.	 evaluate the other 8,477 unique payment records from our population
               of payments with characteristics of a duplicate payment using the
               revised Business Activity Monitoring logic.

Management Comments
The Director, DFAS Cleveland, responding for the BAM Program Manager, agreed in
principle. The Director, DFAS Cleveland, indicated that it may not be possible to rerun
the recommended records using BAM, due to timing issues. However, he stated the
BAM Program Management Office will try to recreate the recommended data, with an
estimated completion date of December 30, 2012. The estimated completion date for
evaluating the recommended payment records is February 1, 2013.

Our Response
The Director, DFAS Cleveland comments are responsive and meet the intent of the
recommendations. No further comments are required.

   4.	 Defense Finance and Accounting Service, Director, Enterprise Solutions and
       Standards, revise and reissue guidance for reporting all improper payments,
       and include examples showing which improper payments should be reported,
       in accordance with DoD Financial Management Regulation, volume 4,
       chapter 14, “Improper Payments.”

Management Comments
The Director, DFAS Cleveland, responding for the Director, Enterprise Solutions and
Standards, agreed, and indicated that DFAS will issue additional guidance, including
examples, as required by DoD FMR, volume 4, chapter 14. The estimated completion
date is January 31, 2013.




                                           10 

Our Response
The Director, DFAS Cleveland comments are responsive and meet the intent of the
recommendation. No further comments are required.




                                         11 

Appendix A. Scope and Methodology
We conducted this performance audit from April 2011 to June 2012 in accordance with
generally accepted government auditing standards. Those standards require us to plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provided a reasonable basis for our findings and conclusions based on
our audit objectives.

It took five months, from May 2011 to September 2011, to develop a population. We
worked with DFAS to resolve multiple data issues. DFAS provided records for every
Navy payment processed through One Pay from October 1, 2009 through
March 31, 2011. Although DFAS provided the population in May 2011, they omitted the
invoice date critical data field from the population. We worked with DFAS to resolve
data issues including missing invoice data for April 2010, unconventional PIINs, 3
interest-only payment records, 4 and payment records valued at $0.00. 5

We reviewed DoD and DFAS guidance for improper payments, and focused our review
on possible duplicate payments and the processes for detecting and preventing duplicate
payments at DFAS. We did not observe the processes in place at the Navy activities. We
considered the five critical data fields DFAS used to identify possible duplicate
payments:
    • Procurement Instrument Identification Number (PIIN)
    • Supplemental Procurement Instrument Identification Number (SPIIN)
    • Date of Invoice
    • Invoice Gross Amount
    • Invoice Number

We developed an audit population from payment records provided in May 2011. The
population contained payment records to vendors and individuals. In an effort to include
records most likely to be duplicate payments, we used the five critical data fields to
collect matching payment records. There were 24,911 payment records, valued at
$40,745,467, which had characteristics of a duplicate payment from October 1, 2009,
through March 31, 2011. We grouped the 24,911 payment records into 8,808 unique
payment records by using risk factors that included at least two payments with matching
critical data fields.




3
  Unconventional PIINs are 15-position document identifiers containing partial names and numbers. For

example, lcomfortablecar was used as a PIIN.

4
  Interest-only payments and interest penalty payments will contain the same five critical fields as the 

original payment.

5
  Payment records valued at $0.00 represent pre-notifications. A pre-notification is a test payment for

$0.00 sent to the vendor's bank account as a method of verifying and validating the bank information.


                                                    12 

We statistically selected a sample of 331 unique payment records, valued at $9,277,676,
from the 8,808 unique payment records. Then we combined each of the 331 unique
payment records with its possible duplicate(s), for a total of 911 payment records, valued
at $22,850,626. We requested supporting documents for 911 payment records from
DFAS. We reviewed the documents and compared them to the payment data to
determine whether duplicate payments occurred. Upon identification, we confirmed the
duplicate payments in our sample with DFAS. Based on the results, we assessed whether
DFAS processes were effective at detecting and preventing duplicate payments processed
through One Pay. See Appendix B for the statistical sampling plan.

Use of Computer-Processed Data
To perform this audit, we used data from One Pay, a subsystem of the Standard
Accounting and Reporting System. We evaluated the reliability of One Pay data by:

   •   reviewing existing information about the system and its data;
   •   interviewing agency officials knowledgeable about the data; and
   •   reviewing related DoD IG and DFAS Internal Review reports.

In addition, we performed electronic testing of the data to identify obvious errors in
accuracy and completeness. To determine whether DFAS processes were effective at
detecting and preventing duplicate payments for 331 selected unique payment records,
we compared the sample data to invoices, vouchers, contracts, and requisition forms. We
determined no differences existed between system data and the supporting documents.
As a result, the data were sufficiently reliable (accurate, competent, and complete) for the
purposes of this report.

Use of Technical Assistance
The DoD IG Quantitative Methods and Analysis Division assisted with the audit. See
Appendices A and B for detailed information about the work performed by the
Quantitative Methods and Analysis Division.

Prior Coverage
During the last five years, the Government Accountability Office (GAO) and the DoD IG
have issued five reports discussing improper payments. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-09-442 "Improper Payments: Significant Improvements Needed
in DoD's Efforts to Address Improper Payment and Recovery Audit Requirements,"
July 2009




                                            13 

DoD IG
Report No. DODIG-2012-065 "DoD Compliance With the Requirements of the
Improper Payments Elimination and Recovery Act," March 2012

Report No. D-2011-050 "DoD Needs to Improve High Dollar Overpayment Review and
Reporting," March 2011

Report No. D-2008-096 "Identification and Reporting of Improper Payments by the
Defense Logistics Agency," May 2008

Report No. D2008-043 "Identification and Reporting of Improper Payments - Refunds
from DoD Contractors," January 2008




                                        14 

Appendix B. Statistical Sample
Population. Upon our request, DFAS provided 1,094,181 Navy payment records
processed through One Pay. DFAS processed the payments to vendors and individuals
from October 1, 2009, through March 31, 2011. We identified data unrelated to our
objectives and removed 5,652 pre-notification records and 97 interest-only payment
records from the original dataset. The revised population contained 1,088,432 payment
records.

We considered the five critical data fields used by DFAS to choose our risk factors for
testing. The One Pay duplicate invoice check used five critical data fields to flag possible
duplicate payment records: (1) Document Number, also known as the Procurement
Instrument Identification Number (PIIN); (2) Invoice Number; (3) Supplemental
Procurement Instrument Identification Number (SPIIN); (4) Invoice Date; and (5) Invoice
Gross Amount. When all five critical data fields on the invoice entered by DFAS into
One Pay, matched an invoice already in the system, One Pay disallowed invoice entry.
The DFAS technician reviewed the information and verified whether a duplicate payment
existed.

We chose four risk factors to identify a population of possible duplicate payments. We
selected the same critical data fields as DFAS for risk factors 5 and 3a and additionally
selected risk factors 4 and 3b, to determine whether the controls detected and prevented
duplicate payments. We then identified payment records with the following risk factors.
Specifically:

       Risk Factor 5: We matched the payment records with the same critical data fields
       (Document Number, Invoice Number, SPIIN, Invoice Date, and Invoice Gross
       Amount). The population contained 405 risk factor 5 records.

       Risk Factor 4: Once we removed the 405 risk factor 5 payment records from the
       population, we identified 201 risk factor 4 records by matching the records with
       the same Document Number, Invoice Number, Invoice Gross Amount, and
       Invoice Date.

       Risk Factor 3a: Once we removed the risk factors 5 and 4 payment records, we
       identified 13,019 risk factor 3a records by matching the records with the same
       Document Number, Invoice Number, and Invoice Gross Amount.

       Risk Factor 3b: Once we removed the risk factors 5, 4, and 3a payment records,
       we identified 11,598 risk factor 3b records by matching the records with same
       Invoice Number, Invoice Gross Amount, and Invoice Date.




                                            15 

Once we identified our population based on the risk factors, we compared payment
records to improper payments reported by DFAS from October 1, 2009, through
August 31, 2011. We identified and removed 312 payment records (248 records from
risk factor 5, no records from risk factor 4, 18 records from risk factor 3a, and 46 records
from risk factor 3b) from the population because DFAS previously reported them as
improper payments. Once we removed these records, the population of possible
duplicate payments contained 24,911 payment records. We grouped the 24,911 payments
by the number of risk factors that matched for a total of 8,808 unique payment records.
Table 1 shows the number of payments records, number of unique payments, and value
by risk factor.

                              Table 1. Population Size
     Risk Factors         Number of            Number of                    Value
                       Payment Records      Unique Payment                (millions)
                                                Records
     5                       157                     76                      $2.9
     4                        201                    93                       1.6
     3a                    13,001                 4,400                      15.8
     3b                    11,552                 4,199                      20.4
       Total               24,911                 8,808                     $40.7




                                            16 

Sample Plan. We stratified the 8,808 unique payment records by risk factor and dollar
value. Using what-if analyses and professional judgment, we designed a 90 percent
confidence level sampling plan that yielded a sample size of 331 unique payment records.
Using the random number generator in Excel and the Statistical Analysis System, we
randomly selected (without replacement) transactions within each stratum. Table 2
shows the sampling selection per strata.

                                      Table 2. Population Size
          Risk                   Strata            Sample Size   Stratum Population
        Factors                                                         Size
        5            GTE1 5,000                        29                 29
                     LT2 5,000                         20                 47
        4            GTE 10,000                        14                 14
                     LT 10,000                         20                 79
        3a           GTE 40,000                        15                 15
                     GTE 10,000 to LT 40,000           34                 66
                     GTE 1,000 to LT 10,000            40                295
                     LT 1,000                          40              4,064
        3b           GTE 40,000                        19                 19
                     GTE 10,000 to LT 40,000           30                 74
                     GTE 1,000 to LT 10,000            30                585
                     LT 1,000                          40              3,521
         Total                                        331              8,808
1
    Greater than or equal to (GTE).
2
    Less than (LT).

Results. Through a review of the 331 unique payment records contained in the sample,
we identified 11 duplicate payments, valued at $162,547.




                                               17 

Glossary
Business Activity Monitoring (BAM): A pre-payment validation tool that identifies
possible improper payments before disbursement. BAM focuses on detecting and
preventing repeat, over, under, and erroneous payments in One Pay. It identifies
improper payments as early in the DFAS payment process as possible, to assist in the
identification and/or help avoid an improper payment. BAM evaluates criteria and
identifies possible improper payments for further research by appropriate personnel for
corrective action.

Critical Data Fields: One Pay performs a duplicate invoice edit check on the following
five critical data fields:
    1. Procurement Instrument Identification Number (PIIN)
    2. Supplemental Procurement Instrument Identification Number (SPIIN)
    3. Date of Invoice
    4. Invoice Gross Amount
    5. Invoice Number

The One Pay Invoice Processing module provides efficient ways of correcting erroneous

data or deleting invoices any time prior to disbursement. To help detect duplicate

payments, One Pay performs an additional check on three of the five critical fields for 

manually processed invoices. If the Invoice Number, PIIN, and Gross Amount match to 

an invoice previously entered, the technician verifies the invoice they are entering is not a

duplicate of the previous entry.


Improper Payment: According to P.L. 111-204 IPERA of 2010, any payment that

should not have been made or that was made in an incorrect amount (including

overpayments and underpayments) under statutory, contractual, administrative, or other

legally applicable requirements; and includes any payment to an ineligible recipient, any

payment for an ineligible good or service, any duplicate payment, any payment for a

good or service not received (except where authorized by law), and any payment that

does not account for credit for applicable discounts. According to DoD FMR, 

volume 4, chapter 14, all erroneous payments are improper payments. 


Invoice Package: Supporting documents required to process payments and may include

a contract, receiving report, invoice, and payment voucher (DoD FMR, 

volume 10, chapter 8). 


One Pay: A subsystem of the Standard Accounting and Reporting System, and online

commercial entitlement system operating together with the Standard Accounting and 

Reporting System database environment. One Pay accepts invoice input from both 

Electronic Data Interchange and remote site batch systems. The system provides invoice 

tracking, online inquiry, status reports, and check issue reporting. 





                                             18 

Procurement Instrument Identification Number (PIIN): A 15-position number
assigned to contracts, and related instruments. For example, a contract document number
is used as a PIIN. The PIIN is also one of the five critical fields in One Pay.

Supplemental Procurement Instrument Identification Number (SPIIN): A 5-digit
number used with the PIIN to identify calls or orders under contracts or basic ordering
agreements. The SPIIN is also one of the five critical fields in One Pay.

Wide Area Work Flow (WAWF): Vendors and Navy activities submit invoices
electronically to WAWF. WAWF transactions are completely electronic and automated.




                                           19 

Defense Finance and Accounting Service Comments





                          DEFENSE FINANCE AND ACCOUNTING SERVICE
                                            1 240 EAST NINTH STREET
                                            CLEVELAND 0 ' '0 4"159



                                                                                             AUG - 8 20..

      OFAS-JBK/CL


      MEMORANDUM FOR DIRECTOR, OFFICE OF                                                      L, DEPARTMENT
                                  OF DEFENSE (A'ITJ\:

      SUBJECT: Ofl:icc or the Inspector General Draft Report, ''DFAS Controls Over Duplicate
               Payments in One Vay Were Generally Effective, But There Were Opportunities tor
                    Improvement," dated July 9, 2012, Proj~\:l No. 02011-DOOODE-0214.000


           The Defense Finance and Accounting Service (DFAS) is providing 'omments on
      Recommendations ], 2, 3 .a, 3. b, and 4 of the subject draft audit report in Attachment l.

                                                                             be reached a-              or




                                                        l~hy
                                                        Director, DFAS Clevd<mi.l

      Attachment:
      As stHcd

      cc:
      DFAS-HlP/IN




                                                   w w w .dfas.mil
                                          Y our Fina'l cial Partnet @ Work




                                                                        20
DFAS Comments to DoD IG Draft Report, "DFAS Controls Over Duplicate Payments in
One Pay Were Generally Effective, But There 'Were Opportunities for Improvement,"
           Dated July 9, 2012, Project No. D2011-DOOODE-0214.000.


Retommendation 1. We recommend the Defense Finance and Accounting Service, One Pay
Systems ::'vlanager, change the One Pay duplicate invoice check to detect and flag payments upon
input that are similar. but have less than five matching critical data fields.

Managemeut Comments. Non-Concur. DFAS Information & Technology (I&T) has
coordinated with the Director of Accounts Payable and we jointly agree that the recommendt:d
change should not be developed because it simply duplicates functionality already available in
the Business Activity Monitoring (BAM) system. The most significant integrity checks in RAM
fur One Pay duplicates are the Invoice DupUcate Same Contract (IDS C) and the Invoice
Duplicate Different Contract (IDDC) integrity checks. These cbecks have fewer com hi nations of
data fields that must match in order to detect a potential improper payment than the S-way match
in One Pay.

lJJSC generates an exception if two invoices have the same contract number, gross amount and
other factors. For instance, this logic will flag an exception when r.vo invoices have the same
contract nun1ber, invoice date, invoice gross amount and invoice number. Another selection
criterion within IDSC that will create an exception is when both. invoices have identical gross
amounts, co:ntract numbers, CAGE codes, invoice numbers, but different invoice dates. There
are nine other selection criterions V~-ithin IDSC that will generate an exception. The different
selection cri1erion allows DF AS to flag potential erroneous payments in a variety of siruations.

IDUC is setup to create an exception when two invoices on different contracts have the same
gross arnouut and share other similarities. Currently IDDC has 3 different indicators that will
cause an ex<:eption to generate when all factors are met. The ftrst is when both invoices have
identical cw'Tcncy gross amounts, invoice numbers, material acceptance dates, and CAGE Codes,
and the gross amount is greater than $250. The second is when two invoices on different
l.:untracts ha·ve the same PUN, invoice number and gross amount, but have different SPIINs. The
other situation is when both invoices have identical amounts, invoice numbers, invoice dates, and
CAGE codes, and the gross amount is over $250.

Rt:commeudatiou 2. We recommend the Defense finance and Accounting Service Cleveland,
Accounts Payable Director, improve the accuracy and reduce the risk of duplicate payments by
devt:loping ;md implt:menting a supervisory review of manually input invoices identified as
possible duplicate payments by ()ne Pay and approved by a technician as a valid payment.

Managemet~t     Comments. Concur. DFAS Cleveland Accounts Payable (AiP) Audit Testing
identified a deficit:ncy in re;:vi~:wi.J•g potential duplicate payment overrides. A/P has initiated two
reviews, in concert with this deficiency being identified, to ensure the duplicate payments are
n:viewe;:tl, when they are presented for payment. These reviews are being done by the
Audit!Cenilication Team, as well as the employees tbat are performing the BAM reviews.

                                                                                   Attachment I




                                                                   21
DFAS Comments to DoD IG Draft R~port, "DFAS Controls Over Duplicate Payments in
One Pay W·crc Generally Effective, But There Were Opportunities for Improvement,"
            Dated July 9, 2012, Project Nn. D201l-OOOODE-0214.000.



We have added the "duplicate by-pass indicator" to the audiL'review/certification team daily
review. Thc;y are re-reviewing what the technician previously identified as not being a
duplicate/emmeous payment. We are doing this to validate it is in fact not a duplicate and!or
erroneous pa~mcnt.

As an added level ofre'.iicw the DFAS Cleveland Accounts Payable I:!M1 team is doing a
review ofth•e daily IDA 188- Potential/Possible duplicate repurts for further validation/review of
invoices tha1t may have been processed. The report identities those invoices that the technician
has previous:ly identified as not duplicate The criterion that is used by BAM b established by
the BAM PMO, in concert with suggestions by i\P.

Completion Date. July 11, 2012. This recommendation is considered closed.


Recommendation 3.a. We recommend the Defense Finance <:~ml Accow1ting Service, Program
Manager. Business Activity Monitoring; revise Business Activity Monitoring logic tor detecting
and preventing duplicates to beyond the "entered within 25 days"' ami "greater than $250"
criteria.

Management Comments. Concur in principal. Each time, new logic is introduced or existing
logic is modified the BAM Program Management Office (PMO) and a group ofDFAS Vendor
Pay Subject Matter Experts conduct validation testing. During that testing numerous parameters
are tested, such as the two identified in this recommendation, ro detennine the oplimum settings.
Optimum settings produce the most true positive exceptions, 'vith the least false positive
exceptions, so that resource utilization is maximized.

The BAM PMO v.ill conduct testing of variotl~ settings a~ recommended and use those results to
determine if a logic change would affect better Improper Payments prevention and better
resource uti! ization.

Estimated Completion Date. December 30,2012.


Recommendation J.b. We recommend the Defense Finance and Accounting Service, Progrom
Manager, Business Activity Monitoring; evaluate the other 8,477 unique payment records from
our populati,on of payments "'ith characteristics of a duplicate payment using the revised
Business Activity Monitoring logic.



                                                                               Attachment I




                                                               22
DF AS Comments to DoD IG Draft Report, "DFAS Controls Over Duplicate Payments in
One Pay Wtere Generally Effective, But Tbere '\iere Opportunities for Improvement,"
            Dated July 9, 2012, Project No. D2011-DOOODE-0214.000.


1\lauag~:m~:nt Comments. Concw· in principal. Due to the date parameter changes specified in
the recomm<mdation and their relation to timing of a transaction, it may not be possible to
systematically rerun the population provided by the audit team and obtain " timely" results. The
BAM PMO will attempt to reconstruct the timeframe and use the recommended data set, but this
may result in a manual review of all 8.477 transactions to determine if they would trigger the
new pararne1ters.

Estimated Completion Date. February l, 2013
BAM PMO e!Turts to be completed by December 30, 2012.


Recommendation 4. We recommend the Defense Finance and Accounting Service, Director,
Enterprise Solutions am! Standards, revise and reissue guidatwe for reporting all improper
payments, and include examples showing which improper payments should be reported, in
accordance w ith DoD Financial Management Regulation. volume 4. chapter 14, "Improper
Payments."

Management Comments. Concur. DFAS will issue additional guidance for reporting all
improper pa;ymt:nts to indude examples as required in DoD Financial Management Regulation,
volume 4, cbapter 14, '"improper Payments."

Estimated Completion Date. January 31 , 2013.




                                                                              Attachment I




                                                              23
